  Peace Corps
  Office of Inspector General




Final Program Evaluation Report:
         Peace Corps/Fiji
            IG-12-01-E

                          November 2011
                           EXECUTIVE SUMMARY
Over 2,200 Peace Corps Volunteers have served the people of Fiji since the program was
launched in 1968. Prior to suspending operations in 1998, Volunteers served the country
for 30 years without interruption. In 2002, the Fijian government requested Peace Corps’
return and in late 2003 the program reopened. Volunteers work in two project areas:
integrated environmental resource management (IERM) and community health
promotion (CHP). At the onset of this evaluation, 61 Volunteers were serving in Fiji.
The post receives one training class input per year, of approximately 30 Volunteers. The
post had an FY11 operating budget of $1.345 million and a staff of nineteen.

Peace Corps/Fiji’s programming is wide-ranging and there is a need for closer
collaboration with host country project partners. The country agreement between the
Peace Corps and Fiji, established in 1968, should be assessed to determine if it remains
adequate to the Peace Corps’ needs. The country program has many stakeholders and
partners with varying interests, but PC/Fiji (hereafter referred to as “the post”) has not
established Memoranda of Understanding (MOUs) with them to define and guide their
working relationship with one another. Additionally, the country director (CD) does not
maintain relationships with most Fijian government stakeholders, which could help
ensure more high-level host government commitment to and support for the Peace Corps
program.

The post has not managed Volunteer work site, housing, or other administrative issues
effectively. Post leadership was perceived by Volunteers to be taking inconsistent
actions, which created confusion among Volunteers, as well as raised concerns about
timeliness and transparency in the decision-making process. Additionally, Volunteers
raised concerns about excessive Volunteer drinking and sexual promiscuity and
expressed the need for additional emotional and mental health support. Programming
staff raised concerns about their ability to provide Volunteers with emotional support and
requested training.

While Volunteers feel safe and supported by their safety and security coordinator, some
raised concerns about emergency evacuation travel to consolidation locations over coastal
roads during a cyclone or tsunami. PCMOs were not sufficiently engaged in the
Volunteer site evaluation and approval process and are not made aware of Volunteer site
assignments until after they had been finalized. This complicates the site assignment
process for Volunteers with medical restrictions, who might need to be placed in a
particular location for support needs. Additionally, Volunteers’ housing did not meet all
post-defined criteria and site locator forms did not contain key information.

Volunteer training generally provides Volunteers with needed skills; however,
improvements are required in technical training programs. The post has focused efforts
on improving training over the last two years. Systems for developing and managing
trainings have been implemented and communication within the programming and
training units has significantly improved. These efforts, especially the focus on rural


Final Program Evaluation Report: Peace Corps/Fiji                                            i
Volunteer community entry, are showing success. Additional efforts are needed to
improve the Early-Service Training program, which is delivered about two months after
Volunteers begin their work assignments.

Our report contains 17 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.
Management concurred with all 17 of our recommendations. Nine recommendations,
number(s) 1, 2, 4, 5, 7, 8, 9, 13 and 15 remain open pending receipt and review of
documents to be submitted.




Final Program Evaluation Report: Peace Corps/Fiji                                       ii
                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................... i

HOST COUNTRY BACKGROUND .............................................................................. 1

PEACE CORPS PROGRAM BACKGROUND ............................................................ 1

EVALUATION RESULTS .............................................................................................. 2
          PROGRAMMING ................................................................................................................................. 2

          TRAINING .......................................................................................................................................... 6

          VOLUNTEER SUPPORT ....................................................................................................................... 9

          MANAGEMENT CONTROLS ...............................................................................................................16


OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................... 19

INTERVIEWS CONDUCTED ...................................................................................... 20

LIST OF RECOMMENDATIONS ............................................................................... 23

LIST OF ACRONYMS .................................................................................................. 25

APPENDIX A: AGENCY’S RESPONSE ..................................................................... 26

APPENDIX B: OIG COMMENTS ............................................................................... 36

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG
CONTACT....................................................................................................................... 43
                    HOST COUNTRY BACKGROUND
The Republic of Fiji is composed of 332 islands, of which approximately 110 are
inhabited, spanning approximately 500,000 square miles of the South Pacific Ocean. It is
known as the soft-coral capital of the world and thousands of miles of coral reef thread
throughout the islands. It is home to a population of approximately 883,000 people.

Fiji obtained its independence from Britain in 1970. A succession of coups - in 1987,
2000, and 2006 - has left Fiji struggling to regain political and economic stability.
Leaders of the most recent coup in 2006 established an interim government led by
Commodore Bainimarama. The Fijian Court of Appeal declared the December 2006
coup and the interim government unlawful and the 1997 constitution was abrogated. A
state of emergency was imposed in April, 2009 and in July 2009 the interim cabinet
appointed Epeli Nailatikau, a former military commander, diplomat, and speaker of the
House of Representatives as the new President.

Following the coups, Fiji has suffered a high rate of emigration of skilled and
professional personnel, causing shortages in the service sectors and in the areas of
education and healthcare. Half of the population lives below or close to the poverty line,
particularly in rural areas. Over-fishing and environmental degradation have reduced
food security from traditional sources. Revenues from tourism, expatriate remittances,
and exported sugar and garments remain the largest contributors to the economy, though
these have dramatically fallen with the current worldwide recession.

Fiji ranks 86 of 169 comparable countries on the Human Development Index (composite
indices .669), and places above the regional average of East Asia and the Pacific
(composite indices .650).


             PEACE CORPS PROGRAM BACKGROUND
The Peace Corps has had a long history in Fiji. Prior to suspending operations in early
1998, Volunteers served the country for 30 years without interruption. More than 2,200
Peace Corps Volunteers have worked with local communities and organizations in
various sectors, including education, business, environmental resource management,
health fisheries and agriculture. In 2002, the Fijian government requested Peace Corps’
return. In late-2003, the program reopened.

The post receives one training class input per year, of approximately 30 Volunteers. At
the onset of our evaluation, there were 61 Volunteers serving in Fiji. The post had an
FY11 operating budget of $1,345 million and a staff of nineteen.

Volunteers work in two project sectors: integrated environmental resource management
(IERM) and community health promotion (CHP) and are engaged in the following
project activities:


Final Program Evaluation Report: Peace Corps/Fiji                                         1
       Integrated Environmental Resource Management
   Volunteers work in partnership with ministries and non-governmental organizations
   (NGOs) to promote environmental education, stewardship, and resource management.
   The project provides assistance in monitoring marine protected areas, waste
   management, and environmental education. A sub-component of the project provides
   assistance in small business development (SBD) and income-generation to promote
   more environmentally friendly income generation practices.

       Community Health Promotion
   Volunteers in partnership with Fijian health educators provide rural health education
   and promotion activities related to non-communicable diseases, HIV/AIDS education
   and prevention, nutrition, and life skills for youth. Volunteers focus on skills transfer
   and capacity building for newly created health-promotion units at regional and sub-
   regional health centers.


                           EVALUATION RESULTS
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented
programs intended to increase the capacity of host country communities to meet their
own technical needs. To determine this, we analyzed the following:

       the coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
       whether post is meeting its project objectives;
       counterpart selection and quality of counterpart relationships with Volunteers;
       site development policies and practices.

In reviewing the post’s grant programs and performance reporting, the Office of
Inspector General (OIG) found no significant areas of concern that would necessitate
action by the post.

The post’s programming is wide-ranging. Volunteers in the post’s project sectors are
placed in ministries, with NGOs, or in rural communities. Only 71 percent (15 of 21) of
Volunteers interviewed reported favorably regarding their familiarity with project goals,
but 84 percent (16/19) rated favorably their ability to accomplish project goals. Many of
the Volunteers we interviewed stated that they only looked at project goals when they
were filling out the Volunteer Reporting Form (VRF), but that the goals were broad
enough that their activities corresponded. Sixty-eight percent of (13 of 19) Volunteers
provided favorable responses to “How well does your Volunteer Assignment Description
(VAD) match your activities?” Volunteers who rated “Below Average” or “Not at All”
attributed the discrepancies to unique assignments or situations.



Final Program Evaluation Report: Peace Corps/Fiji                                          2
The greatest challenges faced by Volunteers in project activities were community
motivation and village politics. During our evaluation, programming and training staff
were in the process of defining criteria for an Initial Community Contact Person (ICCP),
to help guide host communities in their selection of the ICCP. Even so, 95 percent
(20/21) of Volunteers interviewed provided favorable responses to “how satisfied are you
with your site?” and 95 percent (20/21) provided favorable responses to “is there enough
work to do at your site.”

The post produced its first annual report to stakeholders in 2009 and staff reported that
the data collected from the Volunteer Reporting Tool helps them monitor and evaluate
their projects.

The country agreement between the Peace Corps and the government of Fiji should be
reassessed to achieve cost savings.

The Peace Corps' country agreement with the government of Fiji was established in 1968
and there is official agency correspondence from 1972 that acknowledges the provisions
from the 1968 agreement as still being in effect. Upon re-entry of the post in 2003, the
original 1968 country agreement was used. A July 2002 Office of General Counsel
(OGC) status memo recommended that, while the 1968 Country Agreement remains in
effect, the Inter-America and Pacific region should consider whether the agreement
remains adequate to the Peace Corps' needs, as the current agency model agreement is
more favorable to the Peace Corps than the original country 1968 agreement regarding
taxes on goods imported into or purchased in Fiji for the official use of the Peace Corps
as well as an exemption from currency controls. The following is an excerpt from the
status memo:

       In particular, the 1968 Agreement contains what appear to be fairly unique provisions dealing with
       taxes on goods imported into or purchased in Fiji for the official use of the Peace Corps. Under
       the Agreement, such goods are tax-exempt pursuant to terms “negotiated from time to time
       between the Government of Fiji and the Government of the United States.” A 1968 memorandum
       in GC’s files that pre-dates the Agreement states that these provisions resulted from the colonial
       government’s insistence that refunding all duties on goods acquired in Fiji would be an undue
       administrative burden. It was apparently expected that, following the adoption of the Agreement,
       the colonial government and the Peace Corps Country Director would exchange letters in which
       the government would agree to refund duties on goods costing more than ŁF25 (see footnote) and
       would also agree to sell basic office supplies, expected to represent the majority of needed items
       costing less than ŁF25, to the Peace Corps at lower than retail prices. Unfortunately, GC’s files
       contain no evidence that such an exchange of letters was ever made. Nor do we have evidence of
       any other agreements of the kind envisioned by the Country Agreement.

There is no documentation indicating that this country agreement was ever revisited. An
amended country agreement could realize a significant cost savings to the agency.
Without a specific exemption from taxes and duties and exchange of letters by the CD,
the post would not be able to claim refund of duties and VAT paid. Based on information
provided, we estimate that the Peace Corps may not have claimed refund of
approximately $238,000 for the fiscal years 2008, 2009 and 2010, (or annually $79,000).




Final Program Evaluation Report: Peace Corps/Fiji                                                      3
According to Characteristics and Strategies of a High Performing Post (CSHPP)
Indicator 1.3:

        The country director and staff have established the Peace Corps as a unique, serious, and capable
        partner in the host country’s development process. The post has an up-to-date country agreement
        with the host government and staff members make effective use of local networks, resources, and
        activities to support the Volunteers and the projects in which they are working. They combine
        efforts with other partners and link the Peace Corps with appropriate development initiatives.

                  We recommend:

                  1. That the country director work with the Office of
                     General Counsel to assess whether the Peace Corps
                     country agreement with Fiji is adequate and update
                     the country agreement as necessary; or conduct
                     negotiations as called for in the agreement to get
                     tax exempt status on certain purchases.



There is a need for closer collaboration with host country project partners.

The post works with many stakeholders and project partners but does not have
Memoranda of Understanding (MOUs) with any of them. Additionally, the CD does not
maintain relationships with most Fijian government stakeholders. The post has held
Project Advisory Committee (PAC)1 meetings for the past two years. While considered a
successful forum to provide outreach and education about Peace Corps, stakeholders did
not provide substantial input to programming.

The country program works with stakeholders and partners at all levels of government,
many of whom often have multiple interests. At the project sector level, the post works
with partners including government ministries, international and local NGOs and local
communities. Five of the IERM sector’s eight major partners are government ministries,2
though the primary project partner is the Institute of Applied Science (IAS), a research
unit in the University of the South Pacific. The CHP sector’s primary government
partners are the Ministry of Health and Ministry of Youth. Additionally, to make sure
that Volunteers’ can address community needs through relevant offices, the post is
working to further develop its relationships with four district commissioners who have
assumed additional responsibilities as the Fijian government has decentralized. For
example, village/community development plans and funding are now the responsibility of
the four district commissioners. The Public Service Commission (PSC) has been
providing Volunteers’ housing.

1
  A project advisory committee (PAC) is the “voice of key project stakeholders” that helps the Peace Corps
ensure that it develops credible, realistic and responsive project plans and training programs. The
committee shares responsibility for the design, evaluation, and revision of the project.
2
  IERM’s major ministry partners include Ministries of Environment, Youth, Fisheries and Forests,
Tourism, Fijian Affairs, and Provinces and Districts.


Final Program Evaluation Report: Peace Corps/Fiji                                                           4
The CD is the primary contact for the permanent secretary of the Public Service
Commission, which oversees Volunteer housing. However, the post’s program managers
(PMs) have the primary responsibility for developing and managing relationships with
government ministry stakeholders for project work. PMs believe that it would be
beneficial for the country program if there was an established relationship between the
CD and ministry permanent secretaries who provide programmatic input so that a
commitment to work with and support the Peace Corps was established at the highest
levels.

Program and Training (P&T) Guide 2, section B.3.2 highly recommends that every
project have a current national or ministry level MOU: “Memoranda of Understanding
that establish a clear understanding of the goals, objectives, and working relationship
between the Peace Corps and host ministries help to manage expectations and add
credibility to the Peace Corps’ work in the country.” Additionally, CSHPP indicator 6.2
provides guidance that “Peace Corps and host country partner agencies have memoranda
of understanding, which describe and give guidelines for the cooperation between them.
The MOU sets out the roles and responsibilities between the parties.” CSHPP Indicator
6.4 provides guidance that, “The country director, PTO, and APCD/PMs have set up
functioning channels of communication and use them regularly and effectively with host
country government and partner agencies.”

With no formal understanding of the goals and objectives of Peace Corps’ work in Fiji,
and without clear guidelines for cooperation, there could be a misalignment of
expectations, roles or responsibilities between the post and its project partners. Without
relationships at the highest levels of the organizations, it could be more difficult to get
commitments from stakeholders. MOUs and stronger relationships with stakeholders
could add credibility to Peace Corps’ work in Fiji. Post leadership said that they –
recognize a need for MOUs and are trying to determine with whom they should establish
them.

               We recommend:

                2. That the country director establish Memoranda of
                   Understanding with appropriate stakeholders.

                3. That the country director develop and maintain
                   relationships with relevant permanent secretaries
                   and other appropriate government stakeholders.



Peace Corps Medical Officers are not sufficiently involved in the Volunteer site
development or the site approval process.

The Peace Corps Manual Section (MS) 270.6 requires:



Final Program Evaluation Report: Peace Corps/Fiji                                         5
       Each post must develop and apply criteria for the selection and approval of sites. Criteria should
       address work role, potential for integration, living arrangements, vulnerability to natural disasters,
       communication, transportation, access to essential health care and other support services, security
       climate, and consent of host authorities. Also, each post must review the site history, if there is
       any. Evaluation of the site and satisfaction of site selection criteria must be documented by the
       post.

CSHPP Indicator 11.5 for “Selecting and Monitoring Trainee and Volunteer sites” also
states, “Site identification must be a collaborative effort, including programming,
administrative, health, and safety factors and participation, and it is the country director’s
duty to lead in and ensure this collaboration.”

The Peace Corps Medical Officers (PCMOs) in Fiji said that they were not satisfied with
the health evaluation of Volunteer sites. The post’s site selection criteria have only two
“medical” criteria regarding access to essential health care and other support services: the
community must have access to water and cannot have tuberculosis present. PCMOs do
not review the completed site development checklist for accuracy or completeness. Some
Volunteers raised concerns with OIG about ongoing medical problems with an unknown
origin. The post was in the process of testing water at some Volunteers sites as a follow-
up.

Additionally, the PCMOs raised concerns that they are not made aware of Volunteer site
assignments until after they had been finalized by program staff. This complicates the
site assignment process for Volunteers with medical restrictions who might need to be
placed in a particular location for support needs.

The post has developed a site identification tracking system to better manage the process
and encourage collaboration between the units. Each community has its own worksheet
and is rated against criteria. Once the site has met the criteria, the PM is required to
obtain signoff from the medical unit, the SSC and the CD. This tracking system will be
used for the upcoming site identification process.

                We recommend:

                 4. That the country director ensure that a site
                    identification system is implemented collaboratively
                    that allows the PCMOs to: (a) review the criteria
                    for identification of trainee and Volunteer sites and
                    make updates as necessary; (b) review completed
                    site development checklists for accuracy and
                    completeness; and, (c) provide approval of
                    Volunteer site assignments.
TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors
as:


Final Program Evaluation Report: Peace Corps/Fiji                                                           6
       training adequacy;
       planning and development of the training life cycle;
       staffing and related budget.

The director for programming and training (DPT) reported that the post has focused
efforts on improving its training over the last two years. The post implemented the
Training Design and Evaluation (TDE) process and has developed core and sector
training competencies and learning objectives. In reviewing the post’s process for
planning and developing training, OIG found that the process includes input from
programming and training staff. Safety and security and medical staff are included in the
post Pre-Service Training (PST) review, but have not been included in the TDE process.
All programming and training staff interviewed stated that under the currently serving
DPT, effective systems for developing and managing trainings have been implemented
and communication within the programming and training units has significantly
improved. Post staff members reported that they have adequate resources to deliver
Volunteer training. Additionally, post has received support from the office of
programming and training support (OPATS) to enhance its language training. A
language tester training workshop and a language and cross cultural facilitator LCF
workshop were conducted in 2010. Post also received OPATS funding to improve its
language manuals in Fijian and Hindi.

Volunteer training generally provides Volunteers with needed skills; however,
improvements are needed in technical training.

Volunteers participate in several training events throughout their service, including PST,
Early-Service Training (EST), and In-Service Training (IST). The post changed to a split
PST model with its 2010 trainee input. With this model, trainees spend the first seven
weeks of training focusing on language, culture and community integration skills. In the
new model, EST is a more focused technical training held after Volunteers have been at
site for approximately two months. We asked Volunteers to rate the effectiveness of
these trainings and found that training is generally effective but that improvements need
to be made in EST and PST technical training. This is consistent with 2010 All
Volunteer Survey (AVS) data in which Volunteers in PC/Fiji rated PST technical training
(38 percent inadequate) lower than the global average (25 percent inadequate). While
IST ratings were also low in our survey, they only represent nine Volunteer responses.

                 Table 1: Volunteer Perceptions of Training Effectiveness
           Area                (1) Ineffective/     (3) Moderate/ (4) Above   Average
                             (2) Below Average          Average/ (5) Very     Rating
                                                            Effective
   PST:
     Language1                     10%                        90%                3.9
             1
      Culture                      10%                        90%                4.0
      Safety/Security1              5%                        95%                4.2



Final Program Evaluation Report: Peace Corps/Fiji                                        7
        Medical/Health1                                     0%                               100%                4.0
        Technical2                                         25%                                75%                3.1
      EST1                                                 33%                                67%                2.7
      IST3                                                 22%                                78%                3.1
      PDM4                                                 18%                                82%                3.8
     Source: OIG Volunteer Interviews
     1
       N=21, 2N=20, 3N=9, 4N=17

         Table 2: Perceptions of Technical Training Effectiveness by Input Group
                    Area                     Percent of Volunteers rating                      Average Rating
                                             “Average Effectiveness” or
                                                        better
                                              FRE 6&7           FRE8                        FRE 6&7      FRE8
                                                          1                            2
           PST Technical                          67%                            82%          2.81
                                                                                                          3.32
           EST                                    78%1*                          58%3         3.11        2.43
          Source: OIG Volunteer Interviews
          1
            N=9, 2N=11, 3N=12
          * EST for input groups prior to the split PST model was akin to IST



             Table 3: Perceptions of Technical Training Effectiveness by Sector
                                              Percent of Volunteers                           Average Rating
                   Sector                       rating “Average
                                             Effectiveness” or better
                                           PST Technical       EST                           PST          EST
                                                                                           Technical
           CHP                                     75%1                         67%2         3.31         2.62
           IERM                                    88%1                         75%1         3.11         2.91
           SBD                                     50%3                         50%3         2.73         2.53
          Source: OIG Volunteer Interviews
          1
            N=8, 2N=9, 3N=4

The DPT explained that the post focused technical training on community entry skills and
did not split Volunteers by sector in the 2010 PST3. Volunteers stated that PST technical
training content was broadly based and did not focus on the work they perform on their
projects, though most Volunteers commended the gardening and waste management
skills they learned. Urban Volunteers commented that the technical training was very
focused on rural site placements. As noted in tables above, PST technical training is now
more in line with global AVS averages, and for Volunteers who went through the 2010
PST, scores are above global averages. Volunteers in the IERM sector rated PST
technical above the global average.

Volunteers stated that EST was disorganized, rushed and “seemed thrown together.”
Staff stated that the post had intently focused on PST and that they did not put the time
and effort needed into EST. Staff also recognized that all EST training sessions did not

3
    The FRE8 group went through the 2010 PST.


Final Program Evaluation Report: Peace Corps/Fiji                                                                      8
align with post’s project plans and did not address learning objectives. Though our
sample of SBD Volunteers was small, half rated both PST technical and EST as
ineffective. The SBD project is a sub component of the IERM project; there is no
separate SBD project plan.

Post staff have taken actions to improve technical training during PST, and it appears that
their efforts, especially to help rural volunteers gain community entry, are showing
success. To further improve Volunteers’ ability to successfully complete their jobs,
additional efforts are needed to improve the next EST. Additionally, overall technical
training for the SBD Volunteers needs further assessment.

               We recommend:

                       5. That the post revise Early-Service Training
                          to align with the post’s project plans and
                          incorporate learning objectives.

                       6. That the post assess and implement ways to
                          improve technical training for small business
                          development Volunteers.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided
adequate support and oversight to Volunteers?” To determine this, we assessed numerous
factors, including staff-Volunteer communications; project and status report feedback;
medical support; safety and security support including staff visits to Volunteer work sites,
the Emergency Action Plan (EAP) and the handling of crime incidents; and the adequacy
of the Volunteer living allowance.

In reviewing the VAC, Volunteer living allowance, overall staff support, site visits, and
quarterly report feedback, OIG found no significant areas of concern that would
necessitate action by the post. Ninety-four percent of Volunteers interviewed rated the
VAC favorably in terms of effectiveness and 81 percent (17 of 21) rated their living
allowance favorably. The four who provided a below average or lower response were
urban volunteers, who reported difficulties with the sufficiency of the allowance. The
post conducts a living allowance survey every year and was in the process of analyzing
results during the fieldwork portion of this evaluation.

Volunteer feedback, VAC meeting minutes and AVS data all indicate a need to address
programming support issues. The post’s 2010 AVS results were approximately 10
percentage points lower than global averages for APCD/PM support on the dimensions of
responsiveness, informative content and site visits.




Final Program Evaluation Report: Peace Corps/Fiji                                           9
The DPT and the P&T team said that they have been working to improve programming
support through staff trainings. Programming and training staff also commended the
DPT for instituting processes to help them better accomplish their jobs. Some examples
include a tracking system for providing feedback to Volunteers, work periods devoted
to providing feedback, a project tracking system for PST and other training events, and a
site development tracking mechanism.

Our evaluation found that Volunteer support has improved based on the dimensions we
review. Ninety percent (19/21) of Volunteers said that the number of site visits they had
received was adequate and 94 percent (17/18) rated these visits favorably in terms of
meeting their support needs. Eighteen of 19 Volunteers rated favorably staff's
responsiveness to issues raised. Additionally, 100 percent (20 of 20) of Volunteers gave
favorable responses to “How often do your receive feedback from your PM on trimester
reports?” Ninety percent (18 of 20) of Volunteers interviewed gave favorable responses
to the quality of feedback received.

Overall staff support scores are reflected in the table below.

                Table 4: Volunteer Perceptions of Support by Function
                Area of Support        % of Volunteers Who Rated           Average
                                        Staff Support Favorably            Rating
               Leadership                            85%                          3.8
               Programming                           92%                          4.2
               Training                              84%                          3.5
               SS                                   100%                          4.6
               Medical                              100%                          4.3
               Administrative                        94%                          4.4
               Source: OIG Volunteer Interviews




Volunteers’ housing did not meet all post defined criteria.

OIG observations at twelve Volunteer sites revealed that only four of 12 (33
percent) doors met the post’s criterion to have two tower bolts on every door. Two of six
external doors at urban sites did not meet the post’s criterion that external doors have one
deadbolt with a key.

MS 270.6.2 requires:

       All V/T housing or host family arrangements must be inspected by post staff (or a trained
       designee) prior to occupancy to ensure each house and/or home-stay arrangement meets all
       minimum standards as established by the Peace Corps and the post. Reports of the inspections
       must be documented and maintained by the post.




Final Program Evaluation Report: Peace Corps/Fiji                                                     10
The post is not ensuring that each Volunteer house meets all minimum post standards.
Additionally, a 2009 Peace Corps safety and security officer (PCSSO) professional
recommendation to build a photo file of Volunteer housing so that the post ensures that
housing criteria is met prior to Volunteer occupancy, was not implemented. Guidelines
for the photo file have been developed but have not been fully implemented by staff
conducting site development.

               We recommend:

                       7. That the country director implement a
                          mechanism to ensure that Volunteers’
                          housing meets required criteria prior to
                          Volunteer occupancy.

                       8. That the post build a photo file of Volunteer
                          housing to ensure that housing criteria is met
                          prior to Volunteer occupancy.



Site locator forms did not contain key information.

Our analysis of 15 site locator forms uncovered the following missing information:

       5 of 15 (33 percent) contained non-cell phone contact information
       8 of 15 (53 percent) contained information on the local police post
       8 of 15 (53 percent) contained information on the nearest medical facility
       11 of 15 (73 percent) contained adequate maps to Volunteer sites

The agency has a standard operating procedure for site locator forms. Its purpose is to
ensure that accurate communication and logistical information is collected, stored, and
readily available to all staff with an active role in the support of Volunteers during crises.
The procedures require that the SSC work with appropriate staff to ensure that site locator
information is reviewed during all site visits, including global positioning services data,
where permissible.



               We recommend:

                       9. That the post implement a mechanism to
                          ensure that site locator forms contain all
                          necessary information.

                       10. That the safety and security coordinator
                           work with appropriate staff to ensure that


Final Program Evaluation Report: Peace Corps/Fiji                                          11
                               site locator information is reviewed, and
                               updated as necessary, during all site visits.



Volunteers raised concerns about their evacuation plan in the event of a localized
emergency.

Twenty of 21 Volunteers (95 percent) interviewed could name their consolidation points
and 14 of 17 could produce a copy of their EAP4. However, five raised concerns about
travelling to their consolidation points over low lying coastal roads in the event of a
cyclone or tsunami. Two said that in the event of a major disaster, they would do
something different than what they understood to be the direction from the post’s EAP.

Post staff and Volunteers drew attention to the fact that communicating via mobile
phones was a challenge, especially in rural areas, where service coverage was limited or
volunteers turned off their phones to conserve battery power. When interviewed, the
Embassy regional security officer (RSO) also commented that Volunteers in remote
locations could have challenges with communications. The RSO could not produce a
copy of Peace Corps’ EAP, but stated that responses to emergencies are coordinated
between agencies.

The post activated its EAP 11 times due to weather related issues in 2009. In November
2009, post completed a communications test using only landline contact numbers, and
was able to contact 82 percent of Volunteers within 23 hours. During the last hour of the
test, post resorted to using mobile lines and email and was able to contact all Volunteers
within 24 hours.

MS 270.8 requires each post develop and maintain a detailed EAP that addresses the
most likely emergency situations that would impact Peace Corps personnel and
operations. The EAP must detail country-specific issues and procedures. The post’s
EAP details what V/Ts are to do in the case of localized emergencies and covers
cyclones, flooding, tsunami and political instability/social unrest.

The plan states that if a Volunteer feels that it is unsafe to remain at his or her site, he or
she should attempt to contact the post for guidance and assistance, but if unable, should
move to his/her primary consolidation point or another Volunteer’s site by the most direct
and safest means possible. While the post’s EAP covers localized emergencies as
required, much is left to interpretation by the Volunteer about exactly what to do and
Volunteers could be then be relying on the post to provide them guidance and assistance
via mobile phone or text messaging.

In a 2009 PCSSO report, the PCSSO issued a professional recommendation to have
trainees develop a written Personal Safety Plan that can be reviewed with staff during site

4
  Four Volunteers were not interviewed at their house or were at a temporary living location and were not
included in this question.


Final Program Evaluation Report: Peace Corps/Fiji                                                       12
visits to promote personal responsibility for safety and security. The post chose not to
institute this practice as time during PST was limited and stated that much of the
information that would be in a PSP could be found in the Site Locator form. However, a
personal safety plan could provide an opportunity for Volunteers and trainees to develop
an individualized strategy for responding to emergencies that they understood and bought
into which could increase their confidence in localized emergency response.

                We recommend:

                         11. That the country director institute a
                             mechanism, such as a personal safety plan,
                             that would ensure that Volunteers could
                             respond to different emergency scenarios.

                         12. That the post institute annual non-cell phone
                             communications testing.



Volunteers raised concerns about their emotional and mental health support.

When asked about any concerns regarding behavior that could jeopardize the reputation
of the Peace Corps or put someone in danger, six Volunteers voiced concerns about
excessive Volunteer drinking and sexual promiscuity and the need for additional
emotional support:

       “I worry a little about whenever everybody gets together, they drink a lot. We've been fortunate
       that no one has gotten hurt. The level of drinking that happens at Peace Corps happenings - it is a
       safety issue…”

        “I’d like to see more emotional support because that's part of the drinking - taking care of their
       emotional needs. I don't think we were ever told we have a psychiatrist or a counselor to go to
       here…”

Volunteers provided additional insight about their concerns in approaching staff with
emotional or adjustment concerns.

       “There seems to be a sense of fear in admitting emotional or psychological concern for fear of
       being kicked out. One of the guys we trained with, after training, he was here one day and gone
       the next and we didn’t get a clear picture of what happened.”

       “When people quickly vanish [leave the program unexpectedly]…, [we] don’t know why that
       happened. And you know how the application process is…you’ve had depression – you need to
       have a therapist write out a 10 page report on it. It makes you nervous about reporting because
       Peace Corps makes such a big deal about it, even when you have a relatively clean slate coming
       in…”

       “…if you have a safety concern, the SSC is there, a medical concern – the doctors are there. But,
       there is not so much of a holistic perspective. If it’s not completely medical or safety – who can
       you talk to you?”


Final Program Evaluation Report: Peace Corps/Fiji                                                            13
Programming staff also raised concerns about their ability to support Volunteers
emotionally and requested counseling training. One PCMO explained that Volunteers
turn to whomever they are comfortable for emotional support. She also stated that she
had recently learned that Volunteers were not aware of additional mental health support
options available to them, such as seeing a local counselor, and that Volunteer had fears
about coming forward to staff. She planned to address this topic in the next Volunteer
newsletter. Staff also commented on the positive response to a diversity training session
that was offered to some Volunteers and staff and they expressed an on-going need for
such training, especially in the context of supporting diverse volunteers.

Indicator 6.12 of CSHPP states that “APCD/PMs are comfortable with, are trained in, and
are carrying out the personal support roles they must perform in the area of Volunteer
support. They have access to further training resources in these skills. They understand their
limitations and know to whom they should refer specific problems.” As noted previously,
the DPT believes that programming support has improved and that staff wants to support
Volunteers. She also feels that guidelines related to volunteer support are "ambiguous
and unclear" and there are no set criteria against which she can evaluate and measure
staff performance. The DPT plans to work with the VAC to establish Volunteer
expectations and to carry these forward to the programming staff to establish specific
expectations that can be monitored to further improve Volunteer support.

The issues of how to better support Volunteers and address mental health concerns at post
affect more posts than PC/Fiji. We noted that in a June 2011 study on Volunteer safety
and security5, recommendations were made for continuous and consistent training for all
staff on how to better support Volunteers, researching and developing a strategy to
address mental health concerns at post, as well as a global strategy for building and
supporting a culture of personal responsibility among Volunteers.

OIG supports the agency’s macro level recommendations for improving Volunteer
support. We also believe that by helping staff and Volunteers better understand
expectations and resources, the post’s situation could be improved.

                  We recommend:

                           13. That the country director and the Peace
                               Corps medical officers lead a collaborative
                               effort among staff who support Volunteers to
                               ensure they are trained and ready to perform
                               their personal support roles, understand



5
  Director Williams established a senior level team to conduct field research to survey Volunteers’ issues
around safety and security, sexual assault, and unwanted attention; to evaluate staff and Volunteer training
related to safety & security; and to examine opportunities for Peace Corps to strengthen current practices.
The team’s presentation to Director Williams on June 13, 2011 highlighted many recommendations that are
in concert with our findings in Fiji.


Final Program Evaluation Report: Peace Corps/Fiji                                                        14
                               their limitations, and know to whom they
                               should refer specific problems.

                           14. That the Peace Corps medical officers
                               communicate mental and emotional support
                               options to all Volunteers and trainees.


The Post does not consider different living situations when determining settling-in
allowance allowances.

Settling-in allowances are paid to newly assigned Volunteers for necessary housing
supplies and equipment. Six Volunteers talked about the difference in requirements for
the settling-in allowance for replacement volunteers compared to volunteers who are
setting up a new site. They said that the settling-in allowance is not adequate for those
who are setting up a new site, and said that it was more than adequate for Volunteers who
were replacing other Volunteers. Overall, 14/186 gave favorable responses of three or
higher (78 percent) for the adequacy of settling-in.

MS 221.4.0 defines Peace Corps’ settling-in allowance policy. Upon initial site
assignment, Volunteers are provided a settling-allowance to purchase necessary housing
supplies and equipment, which allows them to be involved immediately in their
communities and gives them freedom to manage their own affairs. In order to determine
the appropriate amount of the settling-in allowance, the post is instructed to conduct
surveys on the prices of items commonly purchased by Volunteers with the allowance for
each incoming group of Volunteers. Per MS 221.4.3, the items purchased with the
settling-in allowance become the Volunteer’s personal property, but when Volunteers
complete their tours, the CD should ask Volunteers to donate items in usable conditions
to appropriate institutions, including other Volunteers or the Peace Corps. Further, the
Overseas Financial Management Handbook (OFMH), section 2.2 notes that posts may
establish one rate for all trainees or may establish varied rates, to reflect different living
situations.


                  We recommend:

                           15. That the post analyze whether settling-in
                               allowances should be changed to reflect
                               different living situations and act
                               accordingly.




6
  Some volunteers chose not to rate this because they had interim housing situations or came in as a
replacement Volunteer and did not feel comfortable giving a rating.


Final Program Evaluation Report: Peace Corps/Fiji                                                      15
MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which
the post’s resources and agency support are effectively aligned with the post's mission
and agency priorities. To address these questions, we assess a number of factors,
including staffing; staff development; office work environment; collecting and reporting
performance data; and the post’s strategic planning and budgeting.

In reviewing staff performance appraisals, staff development, strategic planning and
budgeting, and performance reporting, OIG found no significant areas of concern that
would necessitate action by the post. In general, personnel files were well organized and
comments on performance appraisals were generally thorough. The post has instituted
quarterly staff trainings and post staff stated that staff development was supported by the
post’s senior leadership. The post uses an inclusive strategic planning process. The post
produced an annual report for stakeholders. All but one Volunteer stated that they
received training on how to complete the Volunteer Reporting Form (VRF). Eighty-five
percent of Volunteers gave favorable responses to “How reliable is the information in
your trimester or quarterly reports?”

The post also has a Management Advisory Committee (MAC) made up of elected host
country staff. The MAC committee was initially formed in 2003 to establish a bridge
between host country staff and management with respect to Fijian culture’s respect for
elders and persons in supervisory positions. Staff explained that they often don’t feel
comfortable raising issues to supervisors or “fighting for their own interests”
individually.

The post has not managed Volunteer work site, housing, or other issues consistently
and effectively.

Post leadership is not making timely decisions and is taking inconsistent actions with
regards to Volunteer housing, work site, and administrative issues that arise. During OIG
fieldwork, the post was in the process of re-assigning two Volunteers who had been on
“Administrative Hold” for over two months to new assignments and/or housing. One of
the Volunteers was living with the CD, to lessen the financial burden on post, and the
other was housed with another Volunteer. A third Volunteer had established a new work
site on his own initiative that had not been developed by post staff.

These situations created confusion among Volunteers regarding how post handled such
issues, as well as concerns about consistency, timeliness, and transparency in the
decision-making process. Volunteers cited examples and questioned inconsistencies in
post actions regarding Volunteer administrative separations, though they acknowledged
that there are things they wouldn’t know because of confidentiality issues. Some staff
also stated that they believed that administrative separations were not being consistently
applied at post. Additionally, senior post management didn’t believe that OGC supported
their on-site Volunteer management decisions, particularly regarding administrative




Final Program Evaluation Report: Peace Corps/Fiji                                         16
separations, which created hesitancy or a reluctance to act on other similar issues
occurring at post.7

Post management acknowledged that they had not always agreed on how to manage site
change requests and other Volunteer issues. This has created confusion, led to Volunteer
dissatisfaction and Volunteers’ second guessing post’s administrative decisions. The
CD’s communication style seems to have complicated this matter. Without the ability to
effectively and clearly communicate policies and decisions, the issue is exacerbated.

The CD acknowledged awareness of Volunteer confusion and dissatisfaction in regards
to administrative separations. The CD also acknowledged a desire to respond to
Volunteer housing and work site issues when possible, as the post’s programming is
broad and there is flexibility in finding assignments that fit within the programming
framework.

Although 85 percent of Volunteers interviewed scored the CD favorably in terms of
support provided to them and stated that she was “nurturing” and “responsive,”
Volunteers also commented that her communication style is ineffective, in particular her
written communication, such as emails, were unclear, inconsistent, and confusing.
Volunteers also commented about a “disconnect” between the CD and Volunteers. Some
staff members also raised concerns with the CD’s communication style. Staff described
the CD’s communication as lacking focus and being culturally insensitive.

CSHPP Indicators 4.5and 4.18, respectively, state:

         The country director and senior staff set the tone and act as role models for both Volunteer support
         and appropriate Volunteer behavior. They do this primarily by applying the principles of effective
         communication, respect, honesty, and a clear commitment to the Peace Corps’ goals in the
         country.

          In problems involving Volunteer behavior or performance, a balance is maintained between
         supporting the Volunteer as an individual and supporting the program as a whole. The country
         director and staff work to help Volunteers through troublesome situations. Where corrective action
         or administrative separation is indicated, the country director and staff proceed with proper
         documentation and clear communication with the Volunteer and with Peace Corps headquarters.
         The process is transparent and objective.

An inability to effectively manage Volunteer issues affects staff and Volunteer morale
and undermines the Peace Corps country program as a whole. Perceived inconsistencies
in volunteer treatment, especially regarding consequences for behavior creates a lack of
confidence in post leadership undermines management and ultimately the success of the
post.




7
  In its response to the preliminary report, OGC described the process it used to provide guidance to the
post on administrative issues and maintained that the actions taken were sufficient and clear.


Final Program Evaluation Report: Peace Corps/Fiji                                                           17
               We recommend:

                      16. That the country director establish and
                          communicate to staff and Volunteers a
                          consistent and timely decision making
                          process for Volunteer work site, housing, and
                          other programmatic issues.

                      17. That the Region and the Office of General
                          Counsel work with the country director to
                          clarify support roles and utilize the tools
                          available for managing Volunteer issues.




Final Program Evaluation Report: Peace Corps/Fiji                         18
             OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps OIG was established under the
Inspector General Act of 1978 and is an independent entity within the Peace Corps. The
Inspector General (IG) is under the general supervision of the Peace Corps Director and
reports both to the Director and the Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with
independent evaluations of all management and operations of the Peace Corps, including
overseas posts and domestic offices. OIG evaluators identify best practices and
recommend program improvements to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Fiji on
December 10, 2010. For post evaluations, we use the following researchable questions to
guide our work:

       To what extent has post developed and implemented programs to increase host
       country communities’ capacity?
       Does training prepare Volunteers for Peace Corps service?
       Has the post provided adequate support and oversight to Volunteers?
       Are post resources and agency support effectively aligned with the post’s mission
       and agency priorities?

The evaluator conducted the preliminary research portion of the evaluation December 13,
2010 – February 16, 2011. This research included review of agency documents provided
by headquarters and post staff; interviews with management staff representing interviews
with management staff representing the IAP region and office of programming and
training support (OPATS); and inquiries to the office of safety and security, office of
private sector initiatives (OPSI), office of intergovernmental affairs and partnerships,
Volunteer recruitment and selection (VRS), office of medical services (OMS) and OIG
audits and investigations.

In-country fieldwork occurred from February 22, 2011 – March 15, 2011 and included
interviews with post senior staff in charge of programming, training, and support; the
U.S. Ambassador; the embassy regional security officer; NGO representatives; and host
country government ministry officials. In addition, we interviewed a stratified
judgmental sample of 21 Volunteers (34 percent of Volunteers serving at the time of our
visit) based on their length of service, site location, project focus, gender, age, and
ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). The



Final Program Evaluation Report: Peace Corps/Fiji                                     19
evidence, findings, and recommendations provided in this report have been reviewed by
agency stakeholders affected by this review.


                           INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 23 Volunteers, 14 staff
members in-country, and 14 representatives from Peace Corps headquarters in
Washington D.C., the U.S. Embassy in Fiji, and key ministry officials. Volunteer
interviews were conducted using a standardized interview questionnaire, and Volunteers
were asked to rate many items on a five-point scale (1 = not effective, 3 = average
effective, 5 = very effective). The analysis of these ratings provided a quantitative
supplement to Volunteers’ comments, which were also analyzed. For the purposes of the
data analysis, Volunteer ratings of “3” and above are considered favorable. In addition,
18 out of 21 Volunteer interviews occurred at the Volunteers’ homes, and we inspected
12 of these homes using post-defined site selection criteria. The period of review for a
post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire
Volunteer population in Fiji; the Volunteer sample was selected to reflect these
demographics.

                           Table 5: Volunteer Demographic Data
                                                             Percentage of
                                 Project
                                                              Volunteers
            CHP                                                  43%
            IERM                                                 38%
            SBD (subcomponent of IERM)                           19%

                                                             Percentage of
                                Gender
                                                              Volunteers
            Female                                               52%
            Male                                                 48%
                                                             Percentage of
                                      Age
                                                              Volunteers
            25 or younger                                        41%
            26-29                                                28%
            30-49                                                21%
            50 and over                                          10%
            Source: PC/Fiji Roster.

At the time of our field visit, the post had 19 staff positions. The post also employs
temporary staff/contractors to assist with PST. Given the time of our visit, these
positions were not staffed. We interviewed 13 staff members.



Final Program Evaluation Report: Peace Corps/Fiji                                        20
             Table 6: Interviews Conducted with PC/Fiji Staff Members
                         Position                         Status   Interviewed
   Country Director                                    USDH             X
   Director of Management and Operations               USDH             X
   Director of Programming and Training                USDH             X
   Executive Assistant                                 PSC              X
   Safety and Security Coordinator                     PSC              X
   PCMO (2)                                            PSC              X
   Program Manager Health                              PSC              X
   Program Manager Environment                         PSC              X
   Program Assistant Health                            PSC              X
   Program Specialist Environment                      PSC              X
   Training Manager                                    PSC              X
   Training Assistant                                  PSC              X
   IT Specialist                                       PSC
   Financial Assistant                                 FSN
   Cashier                                             FSN
   General Services Manager                            PSC
   General Services Assistant                          PSC
   Administrative Assistant/Receptionist               PSC
   Data as of March 2011.

15 additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps
headquarters in Washington, D.C.

Table 7: Interviews Conducted with PC/Headquarters Staff, Embassy Officials and
                             Key Ministry Officials
                  Position                          Organization
         Regional Director                            PC/Headquarters/IAP
                                                      Region
         Chief of Operations                          PC/Headquarters/IAP
                                                      Region
         Chief Administrative Officer                 PC/Headquarters/IAP
                                                      Region
         Chief of Programming and                     PC/Headquarters/IAP
         Training                                     Region
         Safety and Security Desk                     PC/Headquarters/IAP
         Officer                                      Region
         Country Desk (3)                             PC/Headquarters/IAP
                                                      Region
         Training Specialist, Language                PC/Headquarters/OPATS
         Testing and Training
         Chief, Clinical Programs                     PC/Headquarters/VS/OMS
         Safety and Security Officer                  PC/Headquarters/Office of
         (PCSSO)                                      Safety and Security
         U.S. Ambassador                              U.S. Embassy in Fiji



Final Program Evaluation Report: Peace Corps/Fiji                                      21
         Regional Security Officer                  U.S. Embassy in Fiji
         Senior Scientific Officer                  University of the South
                                                    Pacific, Faculty of Science
                                                    Technology and
                                                    Environment, Institute of
                                                    Applied Sciences
         National Advisor for Non                   Ministry of Health
         Communicable Diseases
  Data as of March 2011.




Final Program Evaluation Report: Peace Corps/Fiji                                 22
                      LIST OF RECOMMENDATIONS
WE RECOMMEND:

   1. That the country director work with the Office of General Counsel to assess
      whether the Peace Corps country agreement with Fiji is adequate and update the
      country agreement as necessary; or conduct negotiations as called for in the
      agreement to get tax exempt status on certain purchases.

   2. That the country director establish Memoranda of Understanding with appropriate
      stakeholders.

   3. That the country director develop and maintain relationships with relevant
      permanent secretaries and other appropriate government stakeholders.

   4. That the country director ensure that a site identification system is implemented
      collaboratively that allows the PCMOs to: (a) review the criteria for identification
      of trainee and Volunteer sites and make updates as necessary; (b) review
      completed site development checklists for accuracy and completeness; and, (c)
      provide approval of Volunteer site assignments..

   5. That the post revise Early-Service Training to align with the post’s project plans
      and incorporate learning objectives.

   6. That the post assess and implement ways to improve technical training for small
      business development Volunteers.

   7. That the country director implement a mechanism to ensure that Volunteers’
      housing meets required criteria prior to Volunteer occupancy.

   8. That the post build a photo file of Volunteer housing to ensure that housing
      criteria is met prior to Volunteer occupancy.

   9. That the post implement a mechanism to ensure that site locator forms contain all
      necessary information.

   10. That the safety and security coordinator work with appropriate staff to ensure that
       site locator information is reviewed, and updated as necessary, during all site
       visits.

   11. That the country director institute a mechanism, such as a personal safety plan,
       that would ensure that Volunteers could respond to different emergency scenarios.

   12. That the post institute annual non-cell phone communications testing.


Final Program Evaluation Report: Peace Corps/Fiji                                       23
   13. That the country director and the Peace Corps medical officers lead a
       collaborative effort among staff who support Volunteers to ensure they are trained
       and ready to perform their personal support roles, understand their limitations,
       and know to whom they should refer specific problems.

   14. That the Peace Corps medical officers communicate mental and emotional
       support options to all Volunteers and trainees.

   15. The post analyze whether settling-in allowances should be changed to reflect
       different living situations and act accordingly.

   16. That the country director establish and communicate to staff and Volunteers a
       consistent and timely decision making process for Volunteer work site, housing,
       and other programmatic issues.

   17. That the Region and the Office of General Counsel work with the country director
       to clarify support roles and utilize the tools available for managing Volunteer
       issues.




Final Program Evaluation Report: Peace Corps/Fiji                                     24
                             LIST OF ACRONYMS
AVS           Annual Volunteer Survey
CD            Country Director
CSHPP         Characteristics and Strategies of a High Performing Post
DPT           Director of Programming and Training
EAP           Emergency Action Plan
EST           Early Service Training
ET            Early Termination
ICCP          Initial Community Contact Person
IST           In-Service Training
MAC           Management Advisory Committee
MOU           Memoranda of Understanding
MS            Manual Section
NGO           Non-governmental Organization
OFMH          Overseas Financial Management Handbook
OIG           Office of the Inspector General
OPATS         Office of Programming and Training Support
PAC           Project Advisory Committee
PAR           Performance and Accountability Report
PCMO          Peace Corps Medical Officer
PCR           Peace Corps Response
PCRV          Peace Corps Response Volunteer
PCSSO         Peace Corps Safety and Security Officer
PM            Program Manager
P&T           Programming and Training
PST           Pre-Service Training
RSO           Regional Security Officer
SLF           Site Locator Form
SSC           Safety and Security Coordinator
TDE           Training Design and Evaluation
USDH          United States Direct Hire
VAC           Volunteer Advisory Committee
VAD           Volunteer Assignment Description
VRF           Volunteer Reporting Form
VRT           Volunteer Reporting Tool




Final Program Evaluation Report: Peace Corps/Fiji                        25
APPENDIX A


                            AGENCY’S RESPONSE




Final Program Evaluation Report: Peace Corps/Fiji   26
Response to the OIG Preliminary Report on the February/March 2011 Evaluation of Peace Corps/Fiji

In February 2011, the Inter-America & Pacific Region sent a four person team to the Pacific to conduct
an assessment of the possibility of a management realignment of Fiji, Tonga and Samoa. The
assessment team, composed of Roger Conrad, Kathy Rulon, Renwick Nelson and Shelley Swendiman,
issued a report of their assessment in April 2011 supporting a sub-regional realignment resulting in the.
long-term reduction of US Direct Hire (USDH) staff in these three countries by thirty percent. This
change will eliminate the Country Director positions in Tonga and Samoa and gives the Country Director
in Fiji sub-regional responsibilities for the three countries. In Tonga and Samoa, each country will have
an Administrative Officer and an APCD for TEFL Training as USDH staff.

The Regional Director will delegate to one of these USDH staff members the limited responsibilities of
HCountry Representative" within the country of service. The Country Representative's responsibilities
will include the oversight of day-to-day operations of the Peace Corps Office, supervision of local staff,
and coordination with the Sub-Regional Country Director in Fiji. The Country Representative will also
have the responsibility of managing relationships with in-country partners.

In FY 2012, neither Samoa nor Tonga will have a new training class, and in Fiji, the level will be reduced
by over 30 percent. By FY 2013, the Volunteer on-board strength will drop to approximately 28 each in
Tonga and Samoa and 38 in Fiji. As part of the staffing review, the assessment team reviewed
programming and training in each country to assure that their operations would benefit from the "Focus
In/Train Up" strategy in the Agency's Comprehensive Assessment. The team recommended that each
country focus on one distinct project (Primary TEFL education in Tonga and Samoa and a Health-related
project in Fiji). This will allow a smaller staff to focus on quality training and Volunteer support.

For the Fiji sub-regional Country Director position, the Region selected Eddie Stice, former CD in
Vanuatu. Eddie arrived in Fiji in mid-August 2011. Ruth Larimer, the previous Country Director in Fiji,
transitioned to serve as CD in Tonga in September 2011 as Kelly Cullen, the former CD in Tonga,
departed for an assignment in the EMA Region. Ruth and current Samoa CD Dale Withington will
continue their service until the end of their tours in 2013 at which time the sub-regional realignment will
be complete and operational under the guidance of the current Fiji Country Director.




1. "rhat the country director work with the Office of General Counsel to assess whether the Peace
Corps country agreement with Fiji is adequate and update the country agreement as necessary; or
conduct negotiations as called for in the agreement to get tax exempt status on certain purchases.

Concur: The attached documentation shows that the country agreement was re-assessed in
consultation with the Office of the General Counsel at the time of Peace Corps' re-entry into Fiji in 2003.
Recent consultations with the Office of the General Counsel by the lAP region confirms that it would be
in the best interest of the Agency to re-negotiate the current country agreement.

The Country Director, in consultations with and following the advice ofthe Embassy, recommends
against seeking an update to the country agreement at this time. Both the Embassy and the Country
Director have recommended that the Peace Corps wait until an elected government is in power and to
enter into negotiations with that democratically elected government.

                                                                                                             2
The Republic of Fiji has chosen not to reimburse VAT to any entity under the U.S. diplomatic mission, 

with the exception of VAT paid on fuel. VAT included in fuel purchases is reimbursable when the proper 

receipts are submitted along with the appropriate forms in duplicate. This VAT reimbursement 

procedure covers all official Peace Corps vehicles and personal staff vehicles owned and operated by 

Schedule 3 diplomats. At present, the two USDH staff are equivalent to Schedule 3 diplomats. 


The Government of Fiji applies the same policy to all credentialed diplomatic missions in country. 

Several recent US Ambassadors have challenged this policy, seeking to use reciprocity as leverage. 

According to senior Embassy staff, there is no expectation that this policy will change in the near future, 

and is partly why the Embassy has recommended that Peace Corps address the country agreement issue 

when a democratically elected government is in place. The attached documentation shows that this has 

been an issue since at least 2008, and that the Embassy has also been unsuccessful in receiving VAT 

exemption. The current Country Director has not been able to identify any privileges or exemptions that 

the Embassy has that the Peace Corps does not have. 


No further action is possible at this time as it has been shown that getting tax exempt status is not an 

option at this point in time. Once democratic elections have occurred and a new elected government is 

in place, the Region will re-visit the concerns raised by the Inspector General's office with respect to the 

country agreement. 


Documents Submitted:
    • 	 2003 email between the Office of General Counsel and the lAP Region indicating that the
        decision was made not to revise the country agreement at that time.

    • 	 2008 email from previous Administrative Officer, Barry Gill, indicating the challenges that both
        Peace Corps and the Embassy have had with attempting to receive VAT exemption.

    • 	 Memo dated April 24, 2003 from the Assistant General Counsel


Status and Timellne for Completion: Completed Novem ber 4, 2011


2. That the country director establish Memoranda of Understanding with appropriate stakeholders.

Concur: Peace Corps/Fiji had already initiated discussions to negotiate and finalize MOUs with the then
appropriate stakeholders under the leadership of the former Country Director, between 2009-2011, as
shown in the attached documentation. However, the post has subsequently been moving to one single
project in the area of health in conjunction with the Ministry of Health. The current Country Director will
be working with officials of the Ministry of Health to develop, negotiate and finalize an MOU regarding
the project.

Documents Submitted:
    • 	 UNIFEM MOU which was completed in August 2010 in conjunction with the Office of General
        Counsel and the previous Country Director.
    • 	 Ministry of Education MOU which was completed in March 2009 in conjunction with the Office
        of General COunsel and the previous Country Director.



                                                                                                            3
        •   Correspondence between the Office of General Counsel and the former Country Director on the
            Ministry of Women MOU from May 2011
        •   SOPAC MOU correspondence from February 2011

     Status and Timeline for Completion: MOU with the Ministry of Health to be completed by January 27,
     2012



     3. That the country director develop and maintain relationships with relevant permanent secretaries
     and other appropriate government stakeholders.

     Concur: The current Country Director understands the critical need to work with the highest level
     officials of primary project partners. In the case of the health project described above, relationship
     building has already begun with the Permanent Secretary and the Deputy Permanent Secretary at the
     Ministry of Health (MoH). The current Health Program Manager will also liaise with staff at the Director
     level and below of the MoH, forming a Project AdviSOry Committee (PAC) for the new project that is
     planned to meet on at least a quarterly basis.

     The Country Director plans to meet regularly with AusAid, UNICEF, Save the Children/Australia, and all
     health donor organizations and stakeholders. These meetings will help to minimize duplication of
     activities, promote sound integration and also increase project-related resources for PCVs.

     Documents Submitted:
        • 	 Letter from Ministry of Health indicating support for the sole Peace Corps health project and
            response from current CD Eddie Stice requesting a meeting and proposing an MOU.

     Status and Timeline for Completion: Completed September 29, 2011



     4. That the Country Director ensure that a site identification system is implemented collaboratively
     that allows the PCMOs to: (a) review the criteria for identification of trainee and Volunteer sites and
     make updates as necessary; (b) review completed site development checklists for accuracy and
     completeness; and, (c) provide approval of Volunteer site assignments.

     Concur: All of the site selection criteria has been reviewed and re-reviewed by Medical, S&S, P&T,
     Admin, and the Country Director. After a thorough discussion with the PCMOs, an agreement was
     reached to ensure that the medical officers would be involved in initial preliminary approvals/rejections
     early on in the process for the obvious no-go sites, ongoing input into the selection process, and final
     approvals at the finalization of the site. The CD recognizes that this must be a collaborative effort with
     regular meetings including all parties. Site conditions change over time and the CD is committed to
     working as a team to review the site data and criteria on an ongoing basis. The CD has laid out a plan for
     the site identification ofthe next input of Volunteers in September 2012 (attached).

-
   Documents Submitted:
        • 	 Community Health Empowerment Project (CHEP) Site Identification Schedule
I
     Status and Timeline for Completion: Completed October 25, 2011


                                                                                                                4
    5-7. These recommendations have been collapsed into recommendation #4 per 10/13/2011 email
    from AIG/Evaluations.

    8. That the post revise Early-Service Training to align with the posts' project plans and incorporate
    learning objectives.

    Concur: The Early Service Training is a two-week Phase II PST that takes place 2-3 months after
    swearing-in. The content of the PST (Phase I and II) is determined by the overall 27-month training
    continuum including core and sector competencies and learning objectives. PC/Fiji has reviewed the
    draft Health Sector Guidance being produced as part of the Focus In/Train Up strategy and anticipates
    the final version scheduled to be completed and disseminated by the Office of Programming and
    Training Support (OPATS) at the end of December 2011. Post plans to align its new project with this
    guidance. PC/Fiji is also awaiting the training packages being developed by OPATS, including learning
    objectives. The health sector project plan that is currently being developed is in the attached draft
    project framework.

    Documents submitted:
       • OPATS draft Health Sector Guidance
       •  Draft project framework for the Community Health Empowerment Project (CHEP)

    Status and Timeline for Completion: January 20, 2012



    9. That the post assess and implement ways to improve technical training for small business
    development volunteers.

    Concur: Per the recommendation from the Regional Management Assessment, PC/Fiji has already made
    the decision to Focus In/Train Up, in accordance with the Agency's strategy, and will have a single
    project in the health sector going forward. Attached is the quarterly trainee request submission for the
    next input (in FY12, Q4) requesting a full class of 25 AA 155s which are health extension Volunteers.

    Without small business development PCVs in the next training class, there will not be a need for this
    kind of technical training.

    Documents Submitted:
       •  FY12, Q4 Quarterly Trainee Request Submission

    Status and Timeline for Completion: Completed July 24, 2011



    10. That the country director implement a mechanism to ensure that Volunteers' housing meets
    required criteria prior to Volunteer occupancy.
-   Concur: The new Country Director is committed to working with staff to have full participation in the

I   site development process and ensure that the housing meets the established criteria prior to the
    Volunteer's arrival at site. Better site development and PC/Fiji's concurrence and implementation with
    the following recommendation to build a photo file will better ensure that PCV hQusing meets the
    required criteria.

                                                                                                             5
In the event that there is a change in housing or the community has not made the required changes,
post is prepared to hold newly sworn-in PCVs in the capital until the required improvements are
completed or make a switch to a backup site. Post will use a criteria checklist to clear on the items on
the list during a housing inspection. A mechanism to ensure that housing criteria is met prior to
Volunteer occupancy is to delay occupancy until all criteria has been met. The current Country Director
is willing to make this commitment to fulfill this recommendation.

Status and Timeline for Completion: Completed October 19, 2011



11. That the post build a photo file of Volunteer housing and utilize it as a means to document that
housing criteria is met prior to Volunteer occupancy.

Concur: Post concurs with this recommendation and is in the process of implementing a photo file of
current Volunteer housing. As staff members visit PCVs they will bring cameras and will document
Volunteer housing. The Post anticipates having all current PCV housing documented with photos by
mid-December. When the next round of site development begins in Q2, FY12, Post will document sites
that are being considered for PCV housing for the September 2012 group.

Status and Timeline for Completion: December 15, 2011



12. That the post implement a mechanism to ensure that site locator forms contain all necessary
information.

Concur: It is the post's policy that all trainees are given a site locator form at the end of PST, Phase I.
They are also given guidance on the importance of completing this form during their first month at site.
The Safety & Security Coordinator (SSe) then tracks the submission of the site locator tracking forms and
contacts the PCV when the deadline has passed. The SSC is responsible for reviewing the completed
form in a timely fashion and for contacting PCVs when additional information is needed. As of March
2011, standardized guidance from Headquarters was sent to the field providing Standard Operating
Procedures (SOP; for SSCs. The CD assures that the Site Locator Form SOP will be implemented.

Documents submitted:
   • Site Locator Form SOP from the Office of Safety & Security

Status and Timeline for Completion: Completed October 21, 2011



13. That the safety and security coordinator work with appropriate staff to ensure that site locator
information is reviewed, and updated as necessary, during all site visits.

Concur: The Country Director is committed to ensuring that the SSC has verified that all site locator
forms/personal safety plan forms (SLF/PSP) have been submitted as well as are fully completed. The
following guidelines have been set out for all PC/Fiji staff:




                                                                                                           6
   • 	 All staff that may be called upon to do an official site visit will be required to complete Site
       locator Form/Personal Security Plan (SlF/PSP) training. This will enable staff to assist PCVs in
       the collection, recording and updating of the SlF/PSP form.
   • 	 All staff conducting official site visits will be required to take a copy of the current form on file
       with them during the site visit. While visiting the PCV the form will be completed if necessary
       and updated as appropriate. Upon return from the site visit, the staff member will inform the
       SSC if there are any changes and, if so, will submit as appropriate. This step has been added to
       the site visit checklist (October 2011).
   • 	 The SSC will be the keeper of the Site locator Control Sheet that tracks the status of SlF/PSPs
       and responsible for follow-up on submissions and updates.
   • 	 Hard copies of the completed SlF/PSP forms will be kept by the SSC, CD, PCMC, DMO, DPT and
       PMs. Copies will be kept in the Duty Officer Handbook. The SSC will be responsible for
       communicating updates to the staff holding copies of forms and ensuring updated forms are
       included in the Duty Officer Handbook.

Documents Submitted:
   • 	 Report form for first PCV site visit
   • 	 Report form for second PCV site visit
   • 	 See SlF/PSP submitted for the following recommendation.

Status and Timeline for Completion: Completed October 12, 2011



14. That the country director institute a mechanism, such as a personal safety plan, that would ensure
that Volunteers could respond to different emergency scenarios.

Concur: PC/Fiji currently works with PCVs to identify and teach appropriate responses to different
emergency scenarios during PST Phase I, Phase II, and again at MST. To fulfill this recommendation,
PC/Fiji has revised its Site locator Form to include a Personal Safety Plan component as shown in the
attached document. This more detailed form will allow PCVs to reflect on their personal safety in their
site and be prepared to respond to potential different emergencies. This information will be updated on
a routine basis as outlined in the response to the previous recommendation.

Additionally, the SSC, Training Manager and Country Director attended the Safety & Security Training for
Trainers in Bangkok, Thailand in September 2011. The training and materials provided will allow them
to more directly incorporate training on the personal safety plan into future training events.

Documents submitted:
   • 	 Site locator Form with new (highlighted) Personal Safety Plan information

Status and Timeline for Completion: Completed October 12, 2011



15. That the post institute annual non-cell phone communications testing.

Concur: Post has implemented this recommendation. The details of this test are in the attached
document and post will add a section on this in the next version of their Emergency Action Plan.


                                                                                                               7
     Documents Submitted:
        • Communications test preparation instructions, October 13,2011
        • Communications test report, October 20,2011
        • EAP test script, October 20, 2011
        •  Fijian/English radio broadcast, October 20, 2011

     Status and Timeline for Completion: Completed October 20, 2011



     16. That the post furnish the regional security officer with a copy of the emergency action plan and
     ensure he has an up-to-date copy of the plan.

     Concur: This recommendation has been removed for the final evaluation report per 10/13/2011 email
     from AIG/Evaluations. The EAP was submitted to the RSO via email on December 14, 2010.




     17. That the country director and the Peace Corps medical officers lead a collaborative effort among
     staff who support Volunteers to ensure they are trained and ready to perform their personal support
     roles, understand their limitations, and know to whom they should refer specific problems.

     Concur: Peace Corps/Fiji has already taken steps to ensure that staff are appropriately trained to
     perform personal support roles. In November 2010, the DPT from Indonesia, Betsy Vegso, conducted a
     training on diversity for the PC/Fiji staff. Additionally, staff trainings on communications support and
     cross-cultural understanding were led by the training team for the rest of the staff.

     The CD and PCMOs propose that these trainings be part of an on-going quarterly staff development
     program. Topics that have already been identified are:

     1. Communication: cultural differences, body language, active listening, etc.
     2. Presentations from each unit on their jobs, what they do, how they can support other offices, etc.
     3. Dealing with uncomfortable situations and recognizing one's own limitations.

     A full-day staff development retreat has been scheduled for November 2011 and these topics will be
     part of the program. Staff will have the opportunity to propose further topicS for sessions as the
     program continues.

     Documents Submitted:
        • PSN and Staff Development Trainer's Reporti November 4, 2010

     Documents to be submitted:
        • Staff de~elopment program for November 9
                                                  th


-
   Status and Timeline for Completion: November 9, 2011

I

                                                                                                             8
    18. That the Peace Corps medical officers communicate mental and emotional support options to all
    Volunteers and trainees.

    Concur: The PC/Fiji PCMOs concur with this recommendation and have already taken several steps to
    provide mental health and emotional support options to all PCVs and trainees. In June 2011, emotional
    and mental health was presented by the PCMOs during pre-service training with a follow-up session on
    October 7,2011 during PST Phase II.

    Additionally, the PCMOs have worked with the Volunteer Advisory Council (VAC) to provide additional
    support option information to PCVs.

    Documents Submitted:
       • 	 Copy of the newsletter from May 2011 disseminating mental health information to PCVs (see
           page 6 with information from PCMOs)
       • 	 Minutes from the April 2011 VAC meeting where mental/emotional health information was
           given to VAC members to pass on to their peers as another method of getting information out
           to Volunteers.
       • 	 Communication from Dr. Josephine Piukala to PCVs, October 2011

    Status and Timeline for Completion: Completed October 13, 2011




    19. 'rhat post analyze whether settling-in allowances should be changed to reflect different living
    situations and act accordingly.

    Concur: Last year's settling-in allowance survey was given to PCVs in July 2010, at the same time they
    were given the settling-in allowance. PCVs were given three months to complete the survey, but only
    five of 32 responses were received by post (around 16%). Post did not have enough data to analyze if
    spending was significantly different based on site placement.

    Post sent the survey to the most recent group in July with a due date of September. Post has received 12
    of 23 responses so far. Post is working with the Volunteer Advisory Committee to contact PCVs who
    have not yet submitted their surveys to encourage them to do so. Post staff members are also making
    calls to encourage PCVs to submit the surveys. Once surveys are received, Post will analyze the results
    to see if spending is significantly different for PCVs who are replaCing other PCVs compared with PCVs
    who are going to a new site.

    Documents Submitted:
       • 	 Settling-in allowance survey sent to PCVs

    Status and Timeline for Completion: November 30, 2011



I

                                                                                                             9
20. That the country director establish and communicate to staff and Volunteers a consistent and
timely decision making process for Volunteer work site, housing, and other programmatic issues.



Concur: The Country Director believes that clear and consistent communication with staff and Volunteer
is essential to the success of the PC/Fiji program. Thus, he has provided a written communication to
staff clarifying the policy and laying out a clear outline of how Volunteer issues will be handled going
forward. The Country Director is committed to ensuring that sites are well developed and, in the case a
site does not work out, the steps for identifying a site and roles that staff and Volunteers play are well
defined. This will lead to a smoother and more timely decision making process.

Documents Submitted:
   •  Email from Country Director to PC/Fiji staff outlining new policy on October 20,2011

Status and Timeline for Completion: Completed October 20,2011



21. That the Region and the Office of General Counsel work with the country director to clarify
support roles and utilize the tools available for managing Volunteer issues.

Concur: The Region concurs with this recommendation. However OGC does not concur and maintains
that actions taken by their office were sufficient and clear in providing support and guidance to the CD
regarding the cited on-site Volunteer management decisions and that further action by OGC, beyond
what they have consistently been dOing, is unnecessary.

Managers at the post consulted OGC lawyers on a number of cases involving potential discipline against
individual Volunteers. In reviewing the cases and discussing them with post staff, OGC has consistently
pointed out that (1) underlying facts must be sufficiently clear or reliably confirmed; (2) the policies
being enforced must be clearly articulated or documented; and (3) the policy should have been
consistently enforced or a change in enforcement ofthe policy announced to the Volunteer community.
In situations where the post was not able to satisfy these conditions, OGC has discussed with Post staff
what its concerns were and offered suggestions for addressing those concerns. As a result, OGC does
not believe they have an additional role in providing guidance to this CD on proper utilization of support
and guidance, but will continue to provide legal support and guidance as appropriate.

The Region will encourage the CD to consult OGC early in the process and the Region will assume the
responsibility for working with OGC and the CD to ensure that available management tools are used
effectively.

The Region has worked with the previous and current CDs in Fiji to clarify the support roles and available
tools for managing Volunteer issues.

Status and Timeline for Completion: Completed November 4, 2011




                                                                                                           10
APPENDIX B


                                OIG COMMENTS
Our preliminary report contained 21 recommendations. Based on information and
responses from management, we eliminated four preliminary report recommendations.
Management concurred with all 17 recommendations contained in the final report. Based
on the documentation provided, we closed eight recommendations. In its response,
management described actions it is taking or intends to take to address the issues that
prompted each of our recommendations. In our analysis below we describe the
documentation or additional action required to close recommendations. We wish to note
that in closing recommendations, we are not certifying that the agency has taken these
actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.

Our comments reflect the final report recommendation numbering scheme. Nine
recommendations, number(s) 1, 2, 4, 5, 7, 8, 9, 13 and 15 remain open. These
recommendations remain open pending confirmation from the chief compliance officer
that the documentation reflected in OIG Analysis below is received.

1. That the country director work with the Office of General Counsel to assess
whether the Peace Corps country agreement with Fiji is adequate and update the
country agreement as necessary; or conduct negotiations as called for in the
agreement to get tax exempt status on certain purchases.

       Concur: The attached documentation shows that the country agreement was re-
       assessed in consultation with the Office of the General Counsel at the time of
       Peace Corps' re-entry into Fiji in 2003. Recent consultations with the Office of the
       General Counsel by the IAP region confirm that it would be in the best interest of
       the Agency to re-negotiate the current country agreement.

       The Country Director, in consultations with and following the advice of the
       Embassy, recommends against seeking an update to the country agreement at this
       time. Both the Embassy and the Country Director have recommended that the
       Peace Corps wait until an elected government is in power and to enter into
       negotiations with that democratically elected government.

       The Republic of Fiji has chosen not to reimburse VAT to any entity under the
       U.S. diplomatic mission, with the exception of VAT paid on fuel. VAT included
       in fuel purchases is reimbursable when the proper receipts are submitted along
       with the appropriate forms in duplicate. This VAT reimbursement procedure
       covers all official Peace Corps vehicles and personal staff vehicles owned and
       operated by Schedule 3 diplomats. At present, the two USDH staff are equivalent
       to Schedule 3 diplomats.




Final Program Evaluation Report: Peace Corps/Fiji                                       36
APPENDIX B


       The Government of Fiji applies the same policy to all credentialed diplomatic
       missions in country. Several recent US Ambassadors have challenged this policy,
       seeking to use reciprocity as leverage. According to senior Embassy staff, there is
       no expectation that this policy will change in the near future, and is partly why the
       Embassy has recommended that Peace Corps address the country agreement issue
       when a democratically elected government is in place. The attached
       documentation shows that this has been an issue since at least 2008, and that the
       Embassy has also been unsuccessful in receiving VAT exemption. The current
       Country Director has not been able to identify any privileges or exemptions that
       the Embassy has that the Peace Corps does not have.

       No further action is possible at this time as it has been shown that getting tax
       exempt status is not an option at this point in time. Once democratic elections
       have occurred and a new elected government is in place, the Region will re-visit
       the concerns raised by the Inspector General's office with respect to the country
       agreement.

       Documents submitted:
            2003 email between the Office of General Counsel and the IAP Region
            indicating that the decision was made not to revise the country agreement
            at that time.
            2008 email from previous Administrative Officer, Barry Gill, indicating
            the challenges that both Peace Corps and the Embassy have had with
            attempting to receive VAT exemption.
            Memo dated April 24, 2003 from the Assistant General Counsel

       OIG Analysis: We acknowledge the agency’s identification of this issue in 2003,
       periodic re-examination of the issue and confirmation that it would be in the best
       interest of the agency to re-negotiate the current country agreement. With the
       Chief of Mission not supporting a renegotiation of the country agreement at this
       time, we concur that the agency should move forward at the appropriate time,
       such as when an elected government is in power. This recommendation will
       remain open until such time. Please provide updates when action to close this
       recommendation has been initiated so that we may track this recommendation to
       completion.

2. That the country director establish Memoranda of Understanding with
appropriate stakeholders.

       Concur: Peace Corps/Fiji had already initiated discussions to negotiate and
       finalize MOUs with the then appropriate stakeholders under the leadership of the
       former Country Director, between 2009-2011, as shown in the attached
       documentation. However, the post has subsequently been moving to one single
       project in the area of health in conjunction with the Ministry of Health. The
       current Country Director will be working with officials of the Ministry of Health
       to develop, negotiate and finalize an MOU regarding the project.


Final Program Evaluation Report: Peace Corps/Fiji                                        37
APPENDIX B


       Documents Submitted:
            UNIFEM MOU which was completed in August 2010 in conjunction with
            the Office of General Counsel and the previous Country Director.
            Ministry of Education MOU which was completed in March 2009 in
            conjunction with the Office of General Counsel and the previous Country
            Director.
            Correspondence between the Office of General Counsel and the former
            Country Director on the Ministry of Women MOU from May 2011
            SOPAC MOU correspondence from February 2011

       Documents to be Submitted and timeline for completion
            MOU with Ministry of Health to be completed by January 27, 2012.

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await receipt of a copy the MOU with the Ministry of
       Health.

4. That the country director ensure that a site identification system is implemented
collaboratively that allows the PCMOs to: (a) review the criteria for identification of
trainee and Volunteer sites and make updates as necessary; (b) review completed
site development checklists for accuracy and completeness; and, (c) provide
approval of Volunteer site assignments

       Concur: All of the site selection criteria has been reviewed and re-reviewed by
       Medical, S&S, P&T, Admin, and the Country Director. After a thorough
       discussion with the PCMOs, an agreement was reached to ensure that the medical
       officers would be involved in initial preliminary approvals/rejections early on in
       the process for the obvious no-go sites, ongoing input into the selection process,
       and final approvals at the finalization of the site. The CD recognizes that this must
       be a collaborative effort with regular meetings including all parties. Site
       conditions change over time and the CD is committed to working as a team to
       review the site data and criteria on an ongoing basis. The CD has laid out a plan
       for the site identification of the next input of Volunteers in September 2012
       (attached).

       Documents Submitted:

               Community Health Empowerment Project (CHEP) Site Identification
               Schedule

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation. Please provide documentation that demonstrates the elements of
       the proposed Volunteer site that PCMOs review and how the collaborative site
       development will be institutionalized.




Final Program Evaluation Report: Peace Corps/Fiji                                        38
APPENDIX B


(Preliminary Report Recommendation numbers 5-7 were combined into
recommendation #4 per 10/13/2011 email from AIG/Evaluations.)

5. That the post revise Early-Service Training to align with the posts' project plans
and incorporate learning objectives.

       Concur: The Early Service Training is a two-week Phase II PST that takes place
       2-3 months after swearing-in. The content of the PST (Phase I and II) is
       determined by the overall 27-month training continuum including core and sector
       competencies and learning objectives. PC/Fiji has reviewed the draft Health
       Sector Guidance being produced as part of the Focus In/Train Up strategy and
       anticipates the final version scheduled to be completed and disseminated by the
       Office of Programming and Training Support (OPATS) at the end of December
       2011. Post plans to align its new project with this guidance. PC/Fiji is also
       awaiting the training packages being developed by OPATS, including learning
       objectives. The health sector project plan that is currently being developed is in
       the attached draft project framework.

       Documents submitted:
            OPATS draft Health Sector Guidance
            Draft project framework for the Community Health Empowerment Project
            (CHEP)

       Documents to be Submitted and timeline for completion

               Revised Health Sector project plans which include learning objectives to
               be completed by January 20, 2012

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation and await receipt of the revised Health Sector project plans
       which include learning objectives.

7. That the country director implement a mechanism to ensure that Volunteers'
housing meets required criteria prior to Volunteer occupancy.

       Concur: The new Country Director is committed to working with staff to have
       full participation in the site development process and ensure that the housing
       meets the established criteria prior to the Volunteer's arrival at site. Better site
       development and PC/Fiji's concurrence and implementation with the following
       recommendation to build a photo file will better ensure that PCV housing meets
       the required criteria.

       In the event that there is a change in housing or the community has not made the
       required changes, post is prepared to hold newly sworn-in PCVs in the capital
       until the required improvements are completed or make a switch to a backup site.
       Post will use a criteria checklist to clear on the items on the list during a housing



Final Program Evaluation Report: Peace Corps/Fiji                                             39
APPENDIX B


       inspection. A mechanism to ensure that housing criteria is met prior to Volunteer
       occupancy is to delay occupancy until all criteria has been met. The current
       Country Director is willing to make this commitment to fulfill this
       recommendation.

       Documents submitted:
            No documentation was submitted

       OIG Analysis: We acknowledge the new Country Director’s commitment to full
       participation in the site development process and to ensure that housing meets the
       established criteria prior to the Volunteer’s arrival at site. Please provide
       documentation as to the mechanism to ensure that all housing criteria is met prior
       to Volunteer occupancy. If implementing a photo file of Volunteer housing is the
       intended mechanism, we will review this recommendation concurrently when
       documentation is received to satisfy recommendation number 11.

8. That the post build a photo file of Volunteer housing and utilize it as a means to
document that housing criteria is met prior to Volunteer occupancy.

       Concur: Post concurs with this recommendation and is in the process of
       implementing a photo file of current Volunteer housing. As staff members visit
       PCVs they will bring cameras and will document Volunteer housing. The Post
       anticipates having all current PCV housing documented with photos by mid-
       December. When the next round of site development begins in Q2, FY12, Post
       will document sites that are being considered for PCV housing for the September
       2012 group.

       Documents to be Submitted and timeline for completion
            A sample from the volunteer housing photo file to be completed by
            December 15, 2011

OIG Analysis: We acknowledge the agency’s efforts to address this recommendation
and await receipt of the sample from the Volunteer housing photo file.


9. That the post implement a mechanism to ensure that site locator forms contain all
necessary information.

       Concur: It is the post's policy that all trainees are given a site locator form at the
       end of PST, Phase I. They are also given guidance on the importance of
       completing this form during their first month at site. The Safety &Security
       Coordinator (SSC) then tracks the submission of the site locator tracking forms
       and contacts the PCV when the deadline has passed. The SSC is responsible for
       reviewing the completed form in a timely fashion and for contacting PCVs when
       additional information is needed. As of March 2011, standardized guidance from
       Headquarters was sent to the field providing Standard Operating Procedures



Final Program Evaluation Report: Peace Corps/Fiji                                           40
APPENDIX B


       (SOP; for SSCs. The CD assures that the Site Locator Form SOP will be
       implemented.

       Documents submitted:
            Site Locator Form SOP from the Office of Safety & Security

OIG Analysis: We acknowledge the agency’s efforts to address this recommendation.
Please provide documentation that reflects the post specific implementation of this SOP.

(Preliminary Report Recommendation 16.) That the post furnish the regional
security officer with a copy of the emergency action plan and ensure he has an up-
to-date copy of the plan.

Note: This recommendation was removed for the final evaluation report per 10/13/2011
email from AIG/Evaluations. The EAP was submitted to the RSO via email on December
14, 2010.


13. That the country director and the Peace Corps medical officers lead a
collaborative effort among staff who support Volunteers to ensure they are trained
and ready to perform their personal support roles, understand their limitations, and
know to whom they should refer specific problems.

       Concur: Peace Corps/Fiji has already taken steps to ensure that staff are
       appropriately trained to perform personal support roles. In November 2010, the
       DPT from Indonesia, Betsy Vegso, conducted a training on diversity for the
       PC/Fiji staff. Additionally, staff trainings on communications support and cross-
       cultural understanding were led by the training team for the rest of the staff.

       The CD and PCMOs propose that these trainings be part of an on-going quarterly
       staff development program. Topics that have already been identified are:
       1. Communication: cultural differences, body language, active listening, etc.
       2. Presentations from each unit on their jobs, what they do, how they can support
           other offices, etc.
       3. Dealing with uncomfortable situations and recognizing one's own limitations.

       A full-day staff development retreat has been scheduled for November 2011 and
       these topics will be part of the program. Staff will have the opportunity to propose
       further topics for sessions as the program continues.

       Documents Submitted:
            PSN and Staff Development Trainer's Report, November 4, 2010
       Documents to be Submitted and timeline for completion
            Staff development program for November 9th, 2011




Final Program Evaluation Report: Peace Corps/Fiji                                       41
APPENDIX B


OIG Analysis: We acknowledge the agency’s efforts to address this recommendation
and await receipt of the staff development program for November 2011 and schedule of
ongoing sessions.


15. That post analyze whether settling-in allowances should be changed to reflect
different living situations and act accordingly.

       Concur: Last year's settling-in allowance survey was given to PCVs in July 2010,
       at the same time they were given the settling-in allowance. PCVs were given three
       months to complete the survey, but only five of 32 responses were received by
       post (around 16%). Post did not have enough data to analyze if spending was
       significantly different based on site placement.

       Post sent the survey to the most recent group in July with a due date of
       September. Post has received 12 of 23 responses so far. Post is working with the
       Volunteer Advisory Committee to contact PCVs who have not yet submitted their
       surveys to encourage them to do so. Post staff members are also making calls to
       encourage PCVs to submit the surveys. Once surveys are received, Post will
       analyze the results to see if spending is significantly different for PCVs who are
       replacing other PCVs compared with PCVs who are going to a new site.

       Documents Submitted:
            Settling-in allowance survey sent to PCVs

       Documents to be Submitted and timeline for completion
            Results of settling-in allowance survey sent to PCVs to be completed by
            November 30, 2011




Final Program Evaluation Report: Peace Corps/Fiji                                      42
APPENDIX C


PROGRAM EVALUATION COMPLETION AND OIG CONTACT
   PROGRAM EVALUATION              This program evaluation was conducted under the
   COMPLETION                      direction of Jim O’Keefe, Assistant Inspector General for
                                   Evaluations, and by Senior Evaluator Susan Gasper.
                                   Additional contributions were made by Reuben Marshall
                                   and Lisa Chesnel.




                                   Jim O’Keefe
                                   Assistant Inspector General for Evaluations

   OIG CONTACT                     Following issuance of the final report, a stakeholder
                                   satisfaction survey will be distributed. If you wish to
                                   comment on the quality or usefulness of this report to help
                                   us improve our products, please e-mail Jim O’Keefe,
                                   Assistant Inspector General for Evaluations and
                                   Inspections, at jokeefe@peacecorps.gov, or call (202)
                                   692-2904.




Final Program Evaluation Report: Peace Corps/Fiji                                                43
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:                 www.peacecorps.gov/OIG/ContactUs

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900

                         www.peacecorps.gov/OIG




All information and complaints will be treated confidentially unless OIG determines,
        during the course of the investigation, that disclosure is unavoidable.
